ATTORNEY GENERAL
DEPARTMENT OF JUSTICE

33 CAPITOL STREET
CONCORD, NEW HAMPSHIRE 03301-6397

GORDON J. MACDONALD
ATTORNEY GENERAL

JANE E, YOUNG
DEPUTY ATTORNEY GENERAL

 

October 4, 2019

Attn: Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE

Washington, DC 20543

Re: Heidi C. Lilley, Kia Sinclair, Ginger M. Pierro v. State of New Hampshire
Docket No.: 19-64

Dear Mr. Harris:

Due to the ongoing caseload within our office, the State of New Hampshire is in need of
additional time to respond to the petition for a writ of certiorari in this matter. Pursuant to
Supreme Court Rule 32, the State is requesting a thirty (30) day extension of time to complete its

response in this matter.

Should you have any questions, please do not hesitate to cg

  
    

oA =. Will
Solicitor General
NH Department of Justice
Office of the Attorney General

/mek
Ce: — Eric Alan Isaacson, Esquire
Law Office of Eric Alan Issacson

6580 Avenida Mirola
La Jolla, CA 92037-6231

Telephone 608-271-3658 * FAX 603-271-2110 * TDD Access: Relay NH 1-800-735-2964
